UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2383
Edward Jones
Plaintiff - Appellant
v.
Candace Edward; Paul N Ford, PLC; Bryce Cook, PLC
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Delta
(2:20-cv-00115 -LPR)
JUDGMENT
Before LOKEN, BENTON, and KOBES, Circuit Judges.
The court has carefully reviewed the original file of the United States District Court and
orders that this appeal be dismissed for lack of jurisdiction.
The motion for leave to proceed on appeal in forma pauperis is denied. The motion for
petition for rehearing is denied as moot.
August 17, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-2383

Page: 1

Date Filed: 08/17/2020 Entry ID: 4945851

Case 2:20-cv-00115-LPR Document 4 Filed 06/08/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
DELTA DIVISION
PLAINTIFF

EDWARD JONES
v.

Case No. 2:20-cv-000115-LPR

CANDACE EDWARD; PAUL
FORT, PLC; BRYCE COOK, PLC

DEFENDANTS
JUDGMENT

Consistent with the Order that was entered on this day, it is considered, ordered, and
adjudged that this case is hereby DISMISSED without prejudice.
IT IS SO ADJUDGED this 8th day of June, 2020.

a
LEE P. RUDOFSKY ’
UNITED STATES DISTRICT JUDGE

Additional material
from this filing is
available in the
Clerk's Office.

